App. 1
United States Court of Appeals
for the Eighth Circuit
------------------------------------------------------------------------------------------------

No. 19-2961
------------------------------------------------------------------------------------------------

Lori Braun, As Administratrix of the
Estate of Cassandra Braun, deceased,
Individually and on Behalf of all Wrongful
Death Beneficiaries of, Cassandra Braun
Plaintiff - Appellant
v.
Brian Ray Burke, Trooper, Individually
as an Officer of the Arkansas State Police;
Bill Bryant, Colonel, Individually as the Chief
Executive Officer of the Arkansas State Police
Defendants - Appellees
-----------------------------------------------------------------------

Appeal from United States District Court for the
Eastern District of Arkansas – Little Rock
-----------------------------------------------------------------------

Submitted: September 22, 2020
Filed: December 23, 2020
-----------------------------------------------------------------------

Before COLLOTON, GRUENDER, and GRASZ, Circuit Judges.
-----------------------------------------------------------------------

App. 2
GRUENDER, Circuit Judge.
The high-speed police pursuit of a speeding vehicle
tragically ended with a car crash killing Cassandra
Braun. Her mother (and estate administrator), Appellant Lori Braun (“Braun”), brought this case, alleging
constitutional violations against the officer involved in
the accident (Appellee Arkansas State Police Trooper
Brian Burke) and his supervisor (Appellee Director of
Arkansas State Police Bill Bryant). The district court1
granted summary judgment for the Appellees on all
claims. For the following reasons, we affirm.
I.
On the night of October 10, 2016, Trooper Burke
was working a hit-and-run accident in a parking lot
along Highway 70. While there, he saw a dark-colored
sport utility vehicle (“SUV”), with flashing hazard
lights, speed past. Trooper Burke estimated the SUV
was traveling at ninety to ninety-five miles per hour in
a fifty-five mile-per-hour zone. Less than two minutes
later, Trooper Burke wrapped up the hit-and-run investigation, got into his police cruiser, and turned onto
Highway 70 to pursue the SUV.
Although Trooper Burke initially activated his
emergency lights and sirens, he turned them off
roughly twenty seconds later. During the pursuit, his
speed averaged over ninety miles per hour, peaking at
1

The Honorable Billy Roy Wilson, United States District
Judge for the Eastern District of Arkansas.

App. 3
more than 110 miles per hour. In a later affidavit,
Trooper Burke stated that he believed the SUV “posed
a serious risk to the motoring public, thus creating
a dangerous situation.” “Believing that there was an
emergently dangerous situation, [he] decided to try
and stop the vehicle in order to end the risk to the public.”
As Trooper Burke headed east on Highway 70
searching for the SUV, Cassandra Braun was a passenger in a car driving west on the same highway. Roughly
eight miles from where Trooper Burke started, Cassandra Braun’s car turned left, entering Burke’s lane.
Although Trooper Burke tried to stop his car, he was
unable. The resulting crash killed Cassandra Braun
and seriously injured Trooper Burke.
Braun brought this case under 42 U.S.C. § 1983,
arguing Trooper Burke violated Cassandra Braun’s
substantive due process right to life under the Fourteenth Amendment. Braun further claimed that Director Bryant violated Cassandra Braun’s rights
by failing to properly train, supervise, or discipline
Trooper Burke. The district court granted summary
judgment for Appellees on all claims, finding no constitutional violations. Braun appeals.
II.
We review the district court’s grant of summary
judgment de novo, viewing the record in the light most
favorable to, and drawing all reasonable inferences for,
the nonmovant. Jones v. Frost, 770 F.3d 1183, 1185 (8th

App. 4
Cir. 2014). “Summary judgment is proper when there
is no genuine dispute of material fact and the prevailing party is entitled to judgment as a matter of law.”
Id.
To establish a substantive due process violation
under the Fourteenth Amendment, Braun must show
that Trooper Burke’s conduct was “so egregious, so outrageous, that it may fairly be said to shock the contemporary conscience.” See Terrell v. Larson, 396 F.3d 975,
978 (8th Cir. 2005) (en banc).2 In evaluating her substantive due process claim, we first must determine
what level of culpability Braun must prove to demonstrate Burke’s behavior was conscience shocking. See
id. Negligence is never enough. Id. Deliberate indifference makes sense “only when actual deliberation is
practical.” Id. (quoting Cty. of Sacramento v. Lewis, 523
U.S. 833, 851 (1998)). But, typically—and especially in
“rapidly evolving, fluid, and dangerous situations”—
the plaintiff must show an intent to harm. Id. Here,
Braun argues we should apply the deliberate indifference standard and implicitly concedes she cannot satisfy a higher standard. Conversely, Appellees argue we
should require an intent to harm.
In Lewis, the Supreme Court held that the intentto-harm standard applies when an officer is engaged in
a high-speed chase of a suspect. 523 U.S. at 854. Expounding on this principle in Terrell, we extended the
2

Braun must also show the conduct violated a fundamental
right, but we need not address that part of the inquiry here. See
Terrell, 396 F.3d at 978 n.1.

App. 5
intent-to-harm standard “to an officer’s decision to engage in high-speed driving in response to other types
of emergencies.” 396 F.3d at 979. Whether an officer
was responding to an “emergency” is a subjective, not
objective, inquiry. Id. at 980. Accordingly, we will accept
an officer’s statement that he believed he was responding to an emergency unless it is “so preposterous as to
reflect bad faith.” Sitzes v. City of W. Memphis, 606 F.3d
461, 469 (8th Cir. 2010).
Here, Trooper Burke was pursuing an SUV traveling at night at a high speed with its hazard lights
flashing. He estimated the SUV was traveling nearly
100 miles per hour, almost twice the fifty-five mile-perhour speed limit. Crucially, Trooper Burke’s affidavit
states that he believed this was an “emergently dangerous” situation that “posed a serious risk to the motoring public.” The affidavit further states that Trooper
Burke believed his pursuit was necessary to end this
dangerous situation. He thus believed he was responding to an emergency, triggering the intent-to-harm
standard.
Braun’s contrary arguments miss the mark. First,
pointing to Terrell and Sitzes, she seems to suggest
that our prior decisions extend the intent-to-harm
standard only to situations where officers respond to
an emergency call, not (presumably) emergencies officers witness themselves. Not so. Although the officers in
Terrell, 396 F.3d at 977, and Sitzes, 606 F.3d at 464,
were responding to emergency calls, we never suggested the way an officer learns of an emergency is crucial. Rather, and as the Supreme Court has explained,

App. 6
the determining factor is the unavailability of “actual
deliberation.” See Lewis, 523 U.S. at 851. This might be
present when an officer responds to an emergency call
or when, as here, an officer witnesses an emergency
firsthand.
Second, Braun asks us to reject as preposterous
Trooper Burke’s belief that the speeding SUV constituted an emergency because he finished his hit-andrun investigation and “saunter[ed]” to his car before
pursuing the SUV. For one, Braun overstates the delay.
Trooper Burke pursued the SUV less than two minutes
after it raced past. Cf. Terrell, 396 F.3d at 977, 980 (applying the intent-to-harm standard to officers who received an emergency call while eating dinner, were ten
miles from the emergency, and were twice told they
were not needed). Regardless, we rejected this precise
argument in Sitzes. 606 F.3d at 468 (“[T]he amount of
time [an officer] had to deliberate on his actions is not,
by itself, sufficient to render the intent-to-harm standard inapplicable.”). Braun also claims that Trooper
Burke’s failure to use his emergency lights or siren for
most of the pursuit shows he did not really believe this
was an emergency. But, again, Braun’s argument runs
headlong into Sitzes. There, we held that an officer’s
failure to activate emergency lights or siren, while “arguably incompatible with a belief that he was responding to an emergency,” was insufficient to overcome the
officer’s contrary affidavit. 606 F.3d at 469. So too here.
Indeed, our decision in Sitzes is generally instructive. There, an officer learned from a police dispatcher
that someone had been assaulted and robbed of $55 in

App. 7
a Wal-Mart parking lot. Id. at 464. The officer responded (even though another officer was already en
route), driving at speeds of at least eighty miles per
hour in a thirty mile-per-hour zone on the wrong side
of the road. Id. We seriously doubted the parking lot
heist constituted an actual emergency. Id. at 469. Still,
we held that the officer’s affidavit stating he believed
he was responding to an emergency was not so preposterous as to reflect bad faith. Id. Even more so here,
where the officer was facing an active threat to public
safety, we are unwilling to find Trooper Burke’s belief
preposterous.
Finally, Braun insists that speeding does not constitute an actual emergency. This argument goes nowhere. Again, the emergency inquiry is a subjective,
not objective, one.
In sum, Trooper Burke believed he was responding
to an emergency, and thus we apply the intent-to-harm
standard. This resolves Braun’s claim against him, as
she does not even argue, much less present any evidence, that he intended to harm anyone. Therefore, the
district court correctly granted summary judgment
for Trooper Burke on Braun’s substantive due process
claim because she failed to establish a constitutional
violation.
Consequently, the district court also rightly granted
summary judgment for Director Bryant. Braun’s failureto-train-or-supervise claim against Director Bryant
requires an underlying constitutional violation. White
v. Jackson, 865 F.3d 1064, 1076 (8th Cir. 2017);

App. 8
Brockinton v. City of Sherwood, 503 F.3d 667, 673 (8th
Cir. 2007). Because Braun’s claim against Trooper
Burke fails, so does her claim against Director Bryant.
For the foregoing reasons, we affirm.

COLLOTON, Circuit Judge, concurring.
I join the opinion of the court and submit these observations regarding the separate concurring opinion
that follows.
In Terrell v. Larson, 396 F.3d 975 (8th Cir. 2005)
(en banc), this court held that in determining the requisite level of culpability to prove a substantive due
process claim against a law enforcement officer, there
is no legally significant distinction between high-speed
driving in pursuit of a suspect and high-speed driving
in response to other types of emergencies. Id. at 978–
979. The court rejected the use of an objective standard
to determine whether a particular situation constitutes an emergency that triggers the “intent-to-harm”
standard of fault that applies to highspeed pursuits
under County of Sacramento v. Lewis, 523 U.S. 833
(1998). Because “substantive due process liability is
grounded on a government official’s subjective intent,
and because the intent-to-harm standard applies
‘when unforeseen circumstances demand an officer’s
instant judgment’ and ‘decisions have to be made in
haste, under pressure, and frequently without the luxury of a second chance,’ ” the court ruled that “this issue turns on whether the deputies subjectively

App. 9
believed that they were responding to an emergency.”
Id. at 980 (quoting Lewis, 523 U.S. at 853). The “intentto-harm” standard thus applies to a substantive due
process claim both when an officer believes that he is
pursuing a suspect and when an officer believes that
he is responding to another type of emergency. The suggestion of the concurrence, post, at 8, that there is a
“legally significant” distinction between the two types
of cases runs counter to Terrell.
More significantly, the concurrence asserts that
our decision in this case “helps illustrate a growing circuit split” on the level of culpability required to establish a substantive due process claim. Post, at 9. The
suggested conflict in authority, however, is illusory. In
Dean v. McKinney, 976 F.3d 407 (4th Cir. 2020), the defendant officer acknowledged that an “emergency” call
had been cancelled, and stated affirmatively that he
was “backing down” to a non-emergency response. Id.
at 415–16. At a minimum, there was a factual dispute
about whether the officer believed in good faith that he
was responding to an emergency. In Sauers v. Borough
of Nesquehoning, 905 F.3d 711 (3d Cir. 2018), which involved a motion to dismiss a complaint, the officer allegedly observed only a “summary” or “minor” traffic
offense, and then pursued the violator at over 100
miles per hour. Id. at 715–16. The complaint alleged
that there was no emergency, and there was no allegation that the officer believed he was responding to an
emergency. Id. at 718. Neither of the cited cases, therefore, applied a “deliberate indifference” standard of

App. 10
fault in a case where it was undisputed that the officer
believed he was responding to an emergency.
As for whether the outcome in this appeal “seems
unjust,” post, at 8, it is important to bear in mind the
limited issue before this court. This case concerns only
whether the plaintiff ’s evidence is sufficient to establish liability for a constitutional tort under the concept
of substantive due process. We do not address whether
the state trooper’s actions were prudent as a matter of
policy or whether such an officer should be liable for
harm caused by reckless driving under traditional
state tort law. The State of Arkansas is free to create a
system of tort liability for law enforcement officers that
could encompass the conduct at issue here, but the
Fourteenth Amendment is not “a font of tort law to be
superimposed upon whatever systems may already be
administered by the States.” Paul v. Davis, 424 U.S.
693, 701 (1976).

GRASZ, Circuit Judge, concurring.
I concur with the court’s opinion. Precedent requires it. But if the outcome also seems unjust, I can
understand why. Two people tragically died after a
state trooper sped and endangered the public in order
to try to locate a car previously seen speeding.
I write separately to address two points. One is a
point of factual emphasis and the other is simply an
observation related to the need for clarity in the

App. 11
interest of public understanding as well as the preservation of respect for the rule of law.
First the point of factual emphasis. This is not a
case involving a high-speed pursuit of a fleeing suspect. Cf. Helseth v. Burch, 258 F.3d 867, 871 (8th Cir.
2001) (en banc) (“We hold that the intent-to-harm
standard of [County of Sacramento v. Lewis, 523 U.S.
833, 847–49 (1998)] applies to all § 1983 substantive
due process claims based upon the conduct of public
officials engaged in a high-speed automobile chase
aimed at apprehending a suspected offender.”). The
facts, when viewed in the light most favorable to
Braun, show that this was instead a hunt for a suspect
whose whereabouts were unclear. That distinction is
legally significant. It matters because when an officer
is not in pursuit of a fleeing suspect, our precedent requires the district court to engage in an additional
step: determining whether the officer subjectively believed he was responding to an “emergency.” See Terrell
v. Larson, 396 F.3d 975, 980 (8th Cir. 2005) (en banc)
(“Under Lewis, the intent-to-harm culpability standard applies if they believed they were responding to an
emergency call.”). While that difference is important
for future cases, the result here is the same. That is
because no facts were presented to create a triable fact
on the trooper’s subjective belief under Sitzes v. City of
West Memphis. See Sitzes, 606 F.3d 461, 469–70 (8th
Cir. 2010) (“We do not understand this case to establish
a per se rule that an officer’s self-serving affidavit will
always insulate that officer from substantive due process liability.”). As a consequence, in this case we must

App. 12
accept the trooper’s affidavit stating he believed there
was an emergency that required him, after concluding
his work at the scene of a hit and run accident, to drive
ninety-eight miles per hour on a public highway without emergency lights or sirens to try to locate a car he
had earlier seen . . . speeding.
Now to the observation. This case helps illustrate
a growing circuit split on when and how to apply the
requisite level of culpability under County of Sacramento v. Lewis, 523 U.S. 833, 847–49 (1998). Compare
Dean v. McKinney, 976 F.3d 407, 414–16 (4th Cir. 2020)
(en banc) (looking at objective facts beyond the officer’s
subjective arguments to decide that deliberate indifference applied), and Sauers v. Borough of Nesquehoning,
905 F.3d 711, 715, 717–18 (3d Cir. 2018) (deciding that
deliberate indifference applied after using objective
factors to determine that no emergency existed), with
Bingue v. Prunchak, 512 F.3d 1169 1176–78 (9th Cir.
2008) (applying an intent-to-harm standard), and Terrell, 396 F.3d at 980 (“[T]his issue turns on whether the
deputies subjectively believed that they were responding to an emergency.”). A uniform standard, or at least
more clarity on when each standard applies, would advance respect for the rule of law in this area. This is
especially true when, as here, there was time to deliberate before engaging in the high-speed driving that
caused the accident and it was not a situation where
the circumstances demanded an officer’s instant judgment or a decision under pressure.

App. 13
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
LORI BRAUN, as Administratrix
of the Estate of Cassandra Braun,
deceased, Individually and on
Behalf of all Wrongful Death
Beneficiaries of Cassandra Braun
VS.

PLAINTIFF

4:18-cv-00334-BRW

TROOPER BRIAN RAY BURKE,
ET AL.
DEFENDANTS
ORDER
(Filed Aug. 3, 2019)
Pending are Plaintiff ’s Motion for Summary Judgment (Doc. No. 51), Defendant’s Motions for Summary
Judgment (Doc. Nos. 54, 58). Responses and replies
have been filed.1 For the reasons set out below, Defendants’ Motions for Summary Judgment (Doc. No. 54, 58)
are GRANTED. Plaintiff ’s Motion for Summary Judgment (Doc. No. 51) is DENIED.
BACKGROUND2

I.

After dark on October 10, 2016, Arkansas State
Trooper Brian Burke was working a hit-and-run accident when a dark SUV with flashing hazard lights
1

Doc. Nos. 65, 67, 71, 72, 76, 81, 82, 88, 89.
Unless otherwise noted, the background is from the parties’
statements of undisputed material facts. Doc. Nos. 53, 56, 60, 66.
2

App. 14
passed him heading traveling at what appeared to be
a high rate of speed. Trooper Burke finished the hitand-run investigation, he pursued the speeding SUV
in his patrol car. During the pursuit, Trooper Burke intermittently activated his sirens or lights and reached
a top speed over 113 miles per hour. Cassandra Braun
was on the same road as the SUV that Trooper Burke
was pursuing. Her boyfriend, who was driving the car,
was attempting to make a left hand turn when Trooper
Burke collided with their vehicle. Ms. Braun and her
boyfriend were killed from the collision.
On May 18, 2018, Plaintiff filed this case against
Trooper Burke under 42 U.S.C. § 1983 and § 1988 for
unreasonable seizure, excessive force, and violations of
due process. Plaintiff also alleges that Defendant Bill
Bryant, Director of the Arkansas State Police, was deliberately indifferent regarding the training, hiring,
supervision, and discipline of Trooper Burke.
II.

SUMMARY JUDGMENT STANDARD

Summary judgment is appropriate only when
there is no genuine issue of material fact, so that the
dispute may be decided on purely legal grounds.3 The
Supreme Court has established guidelines to assist
trial courts in determining whether this standard has
been met:

3

Holloway v. Lockhart, 813 F.2d 874 (8th Cir. 1987); Fed. R.
Civ. P. 56.

App. 15
The inquiry performed is the threshold inquiry of determining whether there is the
need for a trial – whether, in other words,
there are any genuine factual issues that
properly can be resolved only by a finder of
fact because they may reasonably be resolved
in favor of either party.4
The Court of Appeals for the Eighth Circuit has
cautioned that summary judgment is an extreme remedy that should be granted only when the movant has
established a right to the judgment beyond controversy.5 Nevertheless, summary judgment promotes judicial economy by preventing trial when no genuine
issue of fact remains.6 A court must view the facts in
the light most favorable to the party opposing the motion.7 The Eighth Circuit has also set out the burden of
the parties in connection with a summary judgment
motion:
[T]he burden on the party moving for summary judgment is only to demonstrate, i.e.,
“[to point] out to the District Court,” that the
record does not disclose a genuine dispute on
a material fact. It is enough for the movant to
bring up the fact that the record does not contain such an issue and to identify that part of
the record which bears out his assertion. Once
this is done, his burden is discharged, and, if
4

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250 (1986).
Inland Oil & Transport Co. v. United States, 600 F.2d 725,
727 (8th Cir. 1979).
6
Id. at 728.
7
Id. at 727-28.
5

App. 16
the record in fact bears out the claim that no
genuine dispute exists on any material fact, it
is then the respondent’s burden to set forth affirmative evidence, specific facts, showing that
there is a genuine dispute on that issue. If the
respondent fails to carry that burden, summary judgment should be granted.8
Only disputes over facts that may affect the outcome of the suit under governing law will properly preclude the entry of summary judgment.9
III. DISCUSSION
A. Defendant Brian Burke’s Motion for
Summary Judgment
Plaintiffs Fourth Amendment claim must fail because there is no allegation, or evidence, that Trooper
Burke intended to seize Ms. Braun with his patrol car.10
With no intent to seize, there was no seizure, which
means there was no Fourth Amendment violation.
The Fourteenth Amendment claim must also fail.
Even assuming, as Plaintiff contends, that there was
not an emergency warranting Trooper Burke’s highspeed pursuit, Plaintiff cannot establish a violation of
8

Counts v. MK-Ferguson Co., 862 F.2d 1338, 1339 (8th Cir.
1988) (quoting City of Mt. Pleasant v. Associated Elec. Coop., 838
F.2d 268, 273-74 (8th Cir. 1988) (citations omitted)).
9
Anderson, 477 U.S. at 248.
10
Moore v. Indehar, 514 F.3d 756, 760 (8th Cir. 2008) (“Moore
must show that Officer Indehar intended to seize Moore through
the means of firing his weapon at Moore to establish a Fourth
Amendment claim.”).

App. 17
due process. Plaintiff asserts that Trooper Burke’s
“driving in violation of the law in a non-emergency situation without lights and sirens” renders the intentto-harm standard inapplicable. However, according to
the Eighth Circuit, “ ‘the intent-to-harm standard . . .
applies to all § 1983 substantive due process claims
based upon the conduct of public officials engaged in a
high-speed automobile chase aimed at apprehending a
suspected offender,’ regardless of whether the chase
conditions arguably afforded pursuing officers time to
deliberate.”11 The Eighth Circuit has rejected an argument nearly identical to Plaintiff ’s:
First, we must reject plaintiffs’ primary argument, which bases liability on the situation at
Wal–Mart not being a “true” emergency. Terrell forecloses inquiry into the objective nature of the emergency, as substantive due
process liability turns on the intent of the government actor. Thus, the fact that the situation at the Wal–Mart was not as serious as
those presented in Helseth or Terrell, or that
it might not qualify as an “emergency” under
the WMPD Policy and Procedure manual, is
not determinative of the appropriate level of
scrutiny.12
Trooper Burke’s affidavit asserts that he “believed
that the SUV traveling at a high rate of speed with a
likely untrained driver posed a serious risk to the
11

Terrell v. Larson, 396 F.3d 975, 977 (quoting Helseth v.
Burch, 258 F.3d 867, 871 (8th Cir. 2001) (emphasis added)).
12
Sitzes v. City of W. Memphis Ark., 606 F.3d 461, 468 (8th
Cir. 2010).

App. 18
motoring public, thus creating a dangerous situation
. . . [he] believed at the time that [he] was responding
to a dangerous situation and that [he] needed to drive
in the manner that [he] was driving.”13 His belief that
the SUV was traveling at a high rate of speed is also
supported by videos from surveillance cameras along
the road.14 A self-serving affidavit does not always insulate an officer from liability. However, a Court is
required to take “at face value an officer’s characterization of a situation as an emergency in all but the
most egregious cases.”15 The only evidence Plaintiff
presented to question Trooper Burke’s subjective belief
is the fact that he spent nearly an extra minute wrapping up with this hit-and-run and walked, rather than
ran, to his patrol car before pursuing the SUV.16 Without more, Plaintiff is unable to establish that Trooper
Burke’s subjective belief “is so preposterous as to reflect bad faith.”17 The intent-to-harm standard applies,
and there is no evidence that Trooper Burke intended
to harm the decedents. Accordingly, Trooper Burke is
entitled to summary judgment.

13
14
15
16
17

Doc. No. 58-6.
Doc. No. 58-9.
Sitzes, 606 F.3d 469.
Doc. No. 58-1.
Id.

App. 19
B. Defendant Bill Bryant’s Motion for Summary Judgment
Because Plaintiff cannot establish an underlying
constitutional violation, the causes of actions against
Defendant Bryant must also be dismissed.18
CONCLUSION
Based on the findings of fact and conclusions of
law above, Defendants’ Motions for Summary Judgment (Doc. No. 54, 58) are GRANTED. Plaintiff ’s Motion for Summary Judgment (Doc. No. 51) is DENIED.
IT IS SO ORDERED this 30th day of August,
2019.
Billy Roy Wilson
UNITED STATES
DISTRICT JUDGE

18

White v. Jackson, 865 F.3d 1064, 1076 (8th Cir. 2017) (affirming “dismissal of [the plaintiffs] § 1983 claim for failure to
train, supervise, and discipline because he lacks an underlying
substantive claim against the individual defendants.”).

App. 20
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2961
Lori Braun, As Administratrix of the
Estate of Cassandra Braun, deceased,
Individually and on Behalf of all Wrongful
Death Beneficiaries of, Cassandra Braun
Appellant
v.
Brian Ray Burke, Trooper, Individually as
an Officer of the Arkansas State Police and
Bill Bryant, Colonel, Individually as the Chief
Executive Officer of the Arkansas State Police
Appellees
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Eastern District of Arkansas - Little Rock
(4:18-cv-00334-BRW)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
February 01, 2021
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

